31246                                     Federal Register / Vol. 66, No. 112 / Monday, June 11, 2001 / Notices

EFFECTIVE DATE: This increase will be                                        • Physical overhead, consulting, and                            When an authorized entity query is
effective on October 1, 2001.                                              other indirect costs including rent and                        submitted for information on one or
SUPPLEMENTARY INFORMATION:                                                 depreciation on land, buildings and                            more health care practitioners,
                                                                           equipment;                                                     providers or suppliers, the appropriate
User Fee Amount                                                              • Agency management and                                      total fee will be $5 multiplied by the
   Section 1128E(d)(2) of the Social                                       supervisory costs;                                             number of individuals or organizations
Security Act (the Act), as added by                                          • Costs of enforcement, research and                         about whom information is being
section 221(a) of the Health Insurance                                     establishment of regulations and                               requested.
Portability and Accountability Act                                         guidance;                                                         In order to minimize administrative
(HIPAA) of 1996, specifically authorizes                                     • Use of electronic data processing                          costs, the Department will accept
the establishment of fees for the costs of                                 equipment to collect and maintain                              queries submitted by authorized entities
processing requests for disclosure and                                     information, i.e., the actual cost of the                      by credit card or electronic funds
for providing such information, and the                                    service, including computer search                             transfer. The Department will continue
final regulations at 45 CFR part 61 set                                    time, runs and printouts; and                                  to accept payment for self-queries only
forth the criteria and procedures for                                        • Any other direct or indirect costs                         by credit card. The HIPDB accepts Visa,
information to be reported to and                                          related to the provision of services.                          MasterCard, and Discover. To submit
disclosed by the HIPDB. The Act                                              The current fee structure of $4 for                          queries, registered entities (including
requires that the Department recover the                                   each separate query submitted by                               law enforcement agencies) must use the
full costs of operating the HIPDB                                          authorized entities was announced in a                         HIPDB web site at www.npdb­
through user fees. In determining any                                      Federal Register notice on March 3,                            hipdb.com.
changes in the amount of the user fee,                                     2000 (65 FR 11589). Based on the above
                                                                                                                                             The Department will continue to
the Department is employing the criteria                                   criteria and our analysis of the
                                                                                                                                          review the user fee periodically, and
set forth in § 61.13(b) of the HIPDB                                       comparative costs of the various
                                                                                                                                          will revise it as necessary. Any future
regulations.                                                               methods for filing and paying for
                                                                                                                                          changes in the fee and its effective date
   Specifically, § 61.13(b) states that the                                queries, the Department is now
                                                                                                                                          will be announced through notice in the
amount of each fee will be determined                                      increasing the fee for each query
                                                                                                                                          Federal Register.
based on the following criteria:                                           submitted by authorized entities by one
   • Direct and indirect personnel costs;                                  dollar—from $4 to $5.1                                         Examples

                                                                                                                             Fee per
                                                                                                                             name in
                                                 Query method                                                               query, by                        Examples
                                                                                                                            method of
                                                                                                                            payment

Authorized Entity query .........................................................................................                $5.00   10 names in query: 10 × $5 = $50.00.
Self-query ..............................................................................................................       $10.00   10 self-queries 10 × 10 = $100.



  Dated: May 31, 2001.                                                     manufacturing, marketing or providing                          pharmaceutical industry to reduce the
Michael F. Mangano,                                                        goods or services to Medicare, Medicaid                        potential for fraud and abuse.
Acting Inspector General.
                                                 and other Federal health care program                          DATES: To assure consideration,
[FR Doc. 01–14599 Filed 6–8–01; 8:45 am]
                                  beneficiaries. The pharmaceutical                              comments must be delivered to the
BILLING CODE 4152–01–U                                                     industry has experienced a number of                           address provided below by no later than
                                                                           instances of fraud and abuse and has                           5 p.m. on August 10, 2001.
                                                                           expressed interest in increasing the                           ADDRESSES: Please mail or deliver your
DEPARTMENT OF HEALTH AND                                                   awareness of the industry to assist in                         written comments, recommendations
HUMAN SERVICES                                                             protecting against such conduct. In                            and suggestions to the following
                                                                           response to the industry’s concerns, the                       address:Department of Health and
Office of Inspector General                                                OIG has written Advisory Opinions on                           Human Services,Office of Inspector
                                                                           a variety of industry-related issues and,                      General,Attention: OIG–8–CPG,Room
Solicitation of Information and
                                                                           in 1994, published a Special Fraud Alert                       5527 A, Cohen Building,330
Recommendations for Developing a
                                                                           relating to Prescription Drug Marketing                        Independence Avenue,
Compliance Program Guidance for the
                                                                           Schemes.1 Also, in the early 1990s, the                        SW.,Washington, DC 20201.
Pharmaceutical Industry                                                                                                                     We do not accept comments by
                                                                           OIG’s Office of Evaluation and
AGENCY: Office of Inspector General                                        Inspections issued reports relating to                         facsimile (FAX) transmission. In
(OIG), HHS.                                                                                                                               commenting, please refer to the file code
                                                                           prescription drug promotional
ACTION: Notice.                                                                                                                           OIG–8–CPG. Timely-filed comments
                                                                           practices.2
                                                                                                                                          will be available for public inspection as
SUMMARY:   This Federal Register notice                                      In an effort to provide further                              they are received, generally beginning
seeks the input and recommendations of                                     guidance, the OIG is soliciting                                approximately 3 weeks after receipt of a
interested parties as the OIG develops a                                   comments, recommendations and other                            document, in Room 5541 of the Office
compliance program guidance for the                                        suggestions from concerned parties and                         of Inspector General at 330
pharmaceutical industry, especially                                        organizations on how best to develop a                         Independence Avenue, S.W.,
those segments of the industry related to                                  compliance program guidance for the                            Washington, D.C. 20201 on Monday
  1 As part of its obligations under the Privacy Act,                        1 The Advisory Opinions and the Special Fraud                   2 The reports issued by the Office of Evaluation

the Department previously announced a $10 fee for                          Alert can be found on the OIG web site at http://              and Inspections also can be found on the OIG web
health care practitioners, providers or suppliers to                       www.hhs.gov/oig.                                               site.
self-query (64 FR 58851; November 1, 1999).
                              Federal Register / Vol. 66, No. 112 / Monday, June 11, 2001 / Notices                              31247

through Friday of each week from 8 a.m.             contain the seven elements that we          Policy Act (NEPA) document for
to 4:30 p.m.                                        consider necessary for a comprehensive      Sacramento River National Wildlife
FOR FURTHER INFORMATION CONTACT:                    compliance program. These seven             Refuge (NWR). This notice advises the
Mary E. Riordan or Nicole C. Hall,                  elements have been discussed in our         public that the Service intends to gather
Office of Counsel to the Inspector                  previous guidances and include:             information necessary to prepare a CCP
General, (202) 619–2078.                              • The development of written              and environmental documents pursuant
SUPPLEMENTARY INFORMATION: The                      policies and procedures;                    to the National Wildlife Refuge System
development of compliance program                     • The designation of a compliance         Administration Act of 1966, as
guidances has become a major initiative             officer and other appropriate bodies;       amended, and NEPA. The public is
of the OIG in its effort to engage the                • The development and                     invited to participate in the planning
private health care industry in                     implementation of effective training and    process. The Service is furnishing this
addressing and combating fraud and                  education programs;                         notice in compliance with the Service
abuse. Over the past several years, the               • The development and maintenance         CCP policy:
OIG has developed and issued                        of effective lines of communication;          1. To advise other agencies and the
compliance program guidances directed                 • The enforcement of standards            public of our intentions, and
at various segments of the health care              through well-publicized disciplinary          2. To obtain suggestions and
industry.3 These guidances are designed             guidelines;                                 information on the scope of issues to
                                                      • The use of audits and other             include in the environmental
to provide clear direction and assistance
to specific sections of the health care             evaluation techniques to monitor            documents.
industry that are interested in reducing            compliance; and                               3. To announce a series of public
                                                      • The development of procedures to        open houses to occur in May and June
and eliminating fraud and abuse within
                                                    respond to detected offenses and initiate   2001. Information about the time and
their organizations.
   The guidances have represented the               corrective action.                          location of the open house is available
culmination of the OIG’s suggestions on               The OIG would appreciate specific         by contacting the Refuge.
how providers can most effectively                  comments, recommendations and
                                                                                                DATES: To ensure that the Service has
establish internal controls and                     suggestions on (1) risk areas for the
                                                                                                adequate time to evaluate and
implement monitoring procedures to                  pharmaceutical industry, and (2) aspects
                                                                                                incorporate suggestions and other input
identify, correct and prevent fraudulent            of the seven elements contained in the
                                                                                                into the planning process, comments
or wasteful activities. The suggestions             previous guidances that may need to be
                                                                                                should be received on or before July 11,
contained in the guidances are not                  modified to reflect the unique
                                                                                                2001.
mandatory for providers, nor do they                characteristics of the pharmaceutical
                                                    industry. Detailed justifications and       ADDRESSES: Send written comments or
represent an exclusive discussion of the                                                        requests to be added to the mailing list
advisable elements of a compliance                  empirical data supporting any
                                                    suggestions would be appreciated.           to the following address: Planning Team
program.                                                                                        Leader—Sacramento River NWR,
   The compliance program guidance for                We request that any comments,
                                                    recommendations and suggestions be          California / Nevada Refuge Planning
the pharmaceutical industry will be                                                             Office, U.S. Fish and Wildlife Service,
designed to reach segments of the health            submitted in a format that addresses the
                                                    topics outlined above in a concise          2800 Cottage Way, W–1916,
care industry which have not been                                                               Sacramento, California, 95825.
covered by previous guidances, but                  manner, rather than in the form of a
which have recently been the subject of             comprehensive draft guidance that           FOR FURTHER INFORMATION CONTACT: Mr.
increasing scrutiny, such as                        mirrors previous guidances.                 Miki Fujitsubo, Planning Team Leader,
pharmaceutical manufacturers and retail               Dated: May 31, 2001.
                                                                                                (916) 414–6507.
pharmacy chains. As the public debate               Michael F. Mangano,                         History and Background
about prescription drug costs and a                 Acting Inspector General,
                    The Refuge was established in 1989
potential expansion of the Medicare                 [FR Doc. 01–14598 Filed 6–8–01; 8:45 am]

drug benefit continues, this scrutiny is                                                        by the authority provided under the
likely to intensify.
                                                    BILLING CODE 4152–01–U                      Endangered Species Act of 1973 and the
   Through this Federal Register notice,                                                        Emergency Wetlands Resources Act of
the OIG is seeking input from interested                                                        1986, using monies made available
parties as the OIG considers developing             DEPARTMENT OF THE INTERIOR                  through the Land and Water
a compliance program guidance                                                                   Conservation Fund Act of 1965. The
                                                    Fish and Wildlife Service                   Service proposed acquisition of 18,000
directed at the pharmaceutical industry.
The OIG will consider all comments,                                                             acres of land for establishment of the
                                                    Notice of Intent To Prepare a               multi-unit Sacramento River NWR. The
recommendations and suggestions                     Comprehensive Conservation Plan
received within the time frame                                                                  multiple units of the refuge are located
indicated above.                                    AGENCY: U.S. Fish and Wildlife Service,     along both banks of the Sacramento
   We anticipate that the guidance for              Department of the Interior.                 River between Red Bluff and Princeton
the pharmaceutical industry will                    ACTION: Notice of intent to prepare a       in Glenn, Butte, and Tehama Counties,
                                                    Comprehensive Conservation Plan and         California. A combination of fee title
   3 The OIG has issued compliance program
                                                    Associated National Environmental           and conservation easement acquisitions
guidance for the following nine industry sectors:   Policy Act Document for the                 was used to protect this habitat.
hospitals, clinical laboratories, home health                                                     Riparian habitat along the Sacramento
agencies, durable medical equipment suppliers,      Sacramento River National Wildlife
third-party medical billing companies, hospices,    Refuge, Butte, Glenn, and Tehama            River has been identified as critically
Medicare+Choice organizations offering              Counties, California.                       important for various threatened and
coordinated care plans, nursing facilities, and                                                 endangered species, fish, migratory
individual and small group physician practices.     SUMMARY: The U.S. Fish and Wildlife         birds, plants, and to the natural
The compliance program guidances for these
industry sectors can be found on the OIG web site
                                                    Service (Service) is preparing a            ecosystem of the River itself. There has
at http://www.hhs.gov/oig or by calling the OIG     Comprehensive Conservation Plan             been an 89 percent reduction of riparian
Public Affairs office at (202) 619–1343.            (CCP) and National Environmental            vegetation throughout the Sacramento
